No.

IN THE SUPREME COURT OF THE UNITED STATES

LEANDRE JENNINGS, Petitioner,
vs.

STATE OF NEBRASKA, Respondent.

PROOF OF SERVICE

I, Thomas C. Riley declare that on this date, August 7, 2020, and as required by Supreme
Court Rule 29, we have served the enclosed MOTION FOR LEAVE TO PROCEED IN

FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first class postage prepaid, or by delivery to a third party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Nebraska Attorney General, 2115 State Capitol, Lincoln, NE 68509

We declare under penalty of perjury that the foregoing is true and correct.
Executed on August 7, 2020.

,^j-r^y^

/
Thomas C. Riley, #13523
Douglas County Public Defender

/

